<html>
<title> - REVIEW COLONY COLLAPSE DISORDER IN HONEY BEE COLONIES ACROSS THE UNITED STATES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
REVIEW COLONY COLLAPSE DISORDER IN HONEY BEE COLONIES ACROSS THE UNITED 
                                 STATES

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON HORTICULTURE
                        AND ORGANIC AGRICULTURE

                                 of the

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2007

                               __________

                           Serial No. 110-07


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov












                     U.S. GOVERNMENT PRINTING OFFICE

36-465 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001









                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman
TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia,
  Vice Chairman                        Ranking Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH, South Dakota      MIKE ROGERS, Alabama
HENRY CUELLAR, Texas                 STEVE KING, Iowa
JIM COSTA, California                MARILYN N. MUSGRAVE, Colorado
JOHN T. SALAZAR, Colorado            RANDY NEUGEBAUER, Texas
BRAD ELLSWORTH, Indiana              CHARLES W. BOUSTANY, Jr., 
NANCY E. BOYDA, Kansas                   Louisiana
ZACHARY T. SPACE, Ohio               JOHN R. ``RANDY'' KUHL, Jr., New 
TIMOTHY J. WALZ, Minnesota               York
KIRSTEN E. GILLIBRAND, New York      VIRGINIA FOXX, North Carolina
STEVE KAGEN, Wisconsin               K. MICHAEL CONAWAY, Texas
EARL POMEROY, North Dakota           JEFF FORTENBERRY, Nebraska
LINCOLN DAVIS, Tennessee             JEAN SCHMIDT, Ohio
JOHN BARROW, Georgia                 ADRIAN SMITH, Nebraska
NICK LAMPSON, Texas                  KEVIN McCARTHY, California
JOE DONNELLY, Indiana                TIM WALBERG, Michigan
TIM MAHONEY, Florida
                    Robert L. Larew, Chief of Staff
                     Andrew W. Baker, Chief Counsel
           William E. O'Conner, Jr., Minority Staff Director
                                 ------                                

    Subcommittee on Specialty Crops, Rural Development, and Foreign 
                              Agriculture

                DENNIS A. CARDOZA, California, Chairman
BOB ETHERIDGE, North Carolina        RANDY NEUGEBAUER, Texas, Ranking 
LINCOLN DAVIS, Tennessee                 Minority Member
TIM MAHONEY, Florida                 JOHN R. ``RANDY'' KUHL, Jr., New 
JOHN BARROW, Georgia                     York
KIRSTEN E. GILLIBRAND, New York      VIRGINIA FOXX, North Carolina
                                     KEVIN McCARTHY, California
                                     K. MICHAEL CONAWAY, Texas
                KEITH JONES, Subcommittee Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page
Cardoza, Hon. Dennis A., a Representative in Congress from the 
  State of California, Opening statement.........................     1
Peterson, Hon. Collin C., a Representative in Congress from the 
  State of Minnesota, Prepared statement.........................    45
Neugebauer, Hon. Randy, a Representative in Congress from the 
  State of Texas, Prepared statement.............................    47
Goodlatte, Hon. Bob, a Representative in Congress from the State 
  of Virginia, Prepared statement................................    48

                               WITNESSES

Rexroad, Caird E., PhD, Associate Administrator, Agricultural 
  Research Service, U.S. Department of Agriculture, Oral 
  Statement......................................................     3
    Prepared Statement...........................................    50
Cox-Foster, Diana, PhD, Professor, Pennsylvania State University, 
  University Park, Pennsylvania, Oral Statement..................     5
    Prepared Statement...........................................    57
Berenbaum, May R., Professor and Head, Department of Entomology, 
  University of Illinois at Urbana-Champaign, Urbana, Illinois, 
  Oral Statement.................................................     7
    Prepared Statement...........................................    63
Wenger, Paul, First Vice President, California Farm Bureau 
  Federation, Modesto, California, Oral Statement................    20
    Prepared Statement...........................................    74
Ellingson, David, Commercial Beekeeper, Ortonville, Minnesota, 
  Oral Statement.................................................    22
    Prepared Statement...........................................    77
Doan, Jim, Commercial Bee Keeper, Hamlin, California, Oral 
  Statement......................................................    24
    Prepared Statement...........................................    86
Brandi, Gene, Legislative Chairman, California State Beekeepers 
  Association, Los Banos, California, Oral Statement.............    26
    Prepared Statement...........................................    82
Adee, Richard, Legislative Committee Chairman, American Honey 
  Producers Association, Bruce South Dakota, Oral Statement......    28
    Prepared Statement...........................................   120

                           SUBMITTED MATERIAL

Davies Adams, Laurie, Executive Director of Coevolution 
  Institute, San Francisco, California, Submitted Statement......   131
Hackenberg, David, Hackenberg Apiaries, Lewisburg, Pennsylvania, 
  Submitted Statement............................................   138
Hoffman Black, Scott, Executive Director, Ecologist/Economist, 
  The Xerces Society for Invertebrate Conservation, Portland, 
  Oregon, Submitted Statement....................................   149
Cameron, Sydney, University of Illinois, Urbana-Champaign, 
  National Research Initiative Competitive Grants Program, 
  Urbana, Illinois, Submitted Statement..........................
U.S. Department of Agriculture, Washington, D.C., Submitted 
  Material.......................................................   152
Bayer CropScience, Washington, D.C., Submitted Statement.........   165
National Honey Board, Longmont, Colorado, Submitted Statement....   157
Vroom, Jay, CropLife America, Washington, D.C., Submitted 
  Statement......................................................   171
Riviere-Wekstein, Gil, Manager of the publication ``Agriculture & 
  Environment'', Submitted Material..............................   167
Brandi, Gene, Legislative Chairman, California State Beekeepers 
  Association, Los Banos, California, Submitted Additional 
  Statement......................................................   184
Fore, Troy H., Jr., The American Beekeeping Federation, Inc., 
  Jesup, Georgia, Submitted Statement............................   175
National Research Council, Washington, D.C., Submitted Report....   179
Starrh, Larry, Starrh and Starrh Farms, Kern County, California, 
  Submitted Statement............................................   183























HEARING TO REVIEW COLONY COLLAPSE DISORDER IN HONEY BEE COLONIES ACROSS 
                           THE UNITED STATES

                              ----------                              


                        THURSDAY, MARCH 29, 2007

                  House of Representatives,
                  Committee on Agriculture,
                       Subcommittee on Horticulture
                                   and Organic Agriculture,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 1302 of the Longworth House Office Building, Hon. Dennis 
A. Cardoza (chairman of the subcommittee) presiding.
    Members present: Representatives Cardoza, Etheridge, Davis, 
Gillibrand, and Neugebauer.
    Staff present: Keith Jones, Subcommittee Staff Director; 
Scott Kuschmider, Professional Staff; John Riley, Deputy Chief 
of Staff; April Slayton, Communications Director; Debbie Smith, 
Legislative Clerk; Kristin Sosanie, Staff Assistant; John 
Goldberg, Minority Senior Professional Staff; Kevin Kramp, 
Minority Deputy Chief of Staff and Chief Counsel; Pam Miller, 
Minority Senior Professional Staff; and Jamie Weyer, Hearing 
Clerk.

   STATEMENT OF HON. DENNIS A. CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Good morning again. We are going to call this 
hearing of the Subcommittee on Horticulture and Organic 
Agriculture to review colony collapse disorder in honey bee 
colonies across the United States. The order will be that we 
will start with opening statements. As I mentioned earlier, 
there is a number of our Republican colleagues at the White 
House in another meeting, so they may be trickling in later. A 
number of my Democratic colleagues are at different committee 
hearings and should be dropping in as we go forward.
    I want to thank all of you for taking the time from your 
busy schedules to attend this important hearing to testify 
about the honey bee colony collapse disorder. I want to mention 
that there was one of the witnesses from my colleague Kevin 
McCarthy's district, who is unable to make it here today, Mr. 
Larry Starrh from Starrh and Starrh Farms. He had to stay home 
and work the farm and all of you who aren't farmers understand 
that we can't blame him for wanting to take care of business at 
home. His testimony will be submitted for the record without 
objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Cardoza. We are here today to hopefully shed some light 
on a very troubling phenomenon. The purpose of this hearing is 
to examine the potential impact of possible causes of colony 
collapse disorder affecting honey bee colonies across the 
United States. Throughout the country honey bee colonies are 
used for large-scale pollination of many crops. The 
unprecedented disappearance has alarmed farmers and scientists 
and could cost American agriculture millions of dollars.
    The sudden and unexpected drop-off of honey bee pollinators 
was first brought to my attention last year, when a number of 
almond growers in my home district of California's Central 
Valley began to complain about rapidly increasing cost of 
beehives. For those of you who are unfamiliar with the almond 
business, it is a billion dollar crop in California, whose 
survival hinges on pollination from honey bees during the 
crop's bloom cycle. Growers were telling me that honey bee 
hives were going for double and sometimes triple the cost that 
they had sold for just a year earlier.
    These farmers were concerned for a number of reasons. 
First, as you would expect, this price spike created a 
significant and unanticipated financial strain. Secondly, and 
perhaps more relevant to today's assessment, my constituents 
were very concerned that this situation represented more than 
just a blip on the radar screen. They were concerned that it 
was a harbinger of a bigger problem to come. Unfortunately, as 
we now know, their concerns were not unfounded. The 2006 honey 
bee population decline was not a blip on the screen; it was, in 
fact, a precursor to a larger national epidemic.
    Only recently have leading pollinator researchers assigned 
a terminology for this phenomenon. Researchers and industry 
have now termed this dramatic and unprecedented decline colony 
collapse disorder. Much of the current research into this 
massive decline is being conducted by the Pennsylvania State 
University and the University of Illinois at Champaign-Urbana. 
I am pleased that we will be hearing from distinguished 
researchers from both of these institutions today. We are very 
glad to have you because it has become clear that we must focus 
more attention on this emerging crisis.
    Colony losses occur when bees fail to return to their 
hives, which is a very abnormal phenomenon for honey bees. 
While some level of honey bee losses are not unusual, the 
sudden and widespread nature of colony collapse disorder is 
truly unprecedented. Perhaps the most disconcerting, no one 
seems to know exactly what is causing this phenomenon. Some 
theories include parasites, mites or other pathogens, poor 
nutrition and high stress levels among adult bees, or a 
combination of these, or other unknown factors.
    I am deeply committed to raising the awareness of colony 
collapse disorder and its possible affects on American 
agriculture. Thousands of California farmers and beekeepers are 
dependent on honey bees for their livelihood. If we do not move 
swiftly to get to the bottom of this, I fear we will be having 
an even more dramatic problem next year. We must also be 
smart--could I ask everyone who has cell phones to please turn 
them off at this time? We must also be smart in how we address 
this problem. I read somewhere that some in the industry are 
looking for upwards of $300 million to combat colony collapse 
disorder. Ladies and gentlemen, that is just not a realistic 
number. It is important to avoid the temptation to identify a 
potential problem and simply throw millions of dollars at it. 
Instead, through hearings like this one and future 
congressional scrutiny, I am hopeful that we can identify 
exactly where our limited research dollars will be most helpful 
in advancing our goal of preventing of the further decline in 
the honey bee population.
    To begin this closer examination of potential causes and 
solutions to colony collapse disorder, we have assembled two 
very distinguished panels today. I want you to take special 
note of the fact that we have not one but two representatives 
from California's 18th Congressional District with us, a good 
friend of mine, Paul Wenger, who grows almonds in Modesto, 
California and is the First Vice President of the California 
Farm Bureau, and he will share his insight on the impact of 
colony collapse disorder on California's almond industry. And 
we also have with us today Gene Brandi, who is the Legislative 
Chairman of the California State Beekeepers Association and he 
will speak from a beekeeper's perspective.
    [The information appears at the conclusion of the hearing.]
    Mr. Cardoza. With that, Mr. Etheridge, do you have any 
opening statement that you would like to put forward?
    Mr. Etheridge. Mr. Chairman, I will submit mine for the 
record so we get straight to the witnesses.
    [The information appears at the conclusion of the hearing.]
    Mr. Cardoza. Very good. What I would like to do now is 
introduce our first panel, if I can find my sheet here. We have 
with us today Associate Administrator Caird Rexroad, who has a 
Ph.D., with the Agricultural Research Service, USDA, 
Washington, D.C. Thank you. Sir, did I butcher your name very 
badly?
    Mr. Rexroad. No worse than I do.
    Mr. Cardoza. Okay. We have Dr. Diana Cox-Foster, Ph.D., and 
professor at Pennsylvania State University, University Park, 
Pennsylvania. Welcome. We also have Dr. May Berenbaum, 
professor and head of the Department of Entomology at the 
University of Illinois at Urbana-Champaign in Illinois. Thank 
you very much. Dr. Rexroad, please start your testimony.

 STATEMENT OF ASSOCIATE ADMINISTRATOR CAIRD E. REXROAD, PH.D., 
              AGRICULTURAL RESEARCH SERVICE, USDA

    Mr. Rexroad. Thank you, Mr. Chairman. As a former beekeeper 
myself, I am pleased to be here today, Mr. Chairman and 
distinguished members of the subcommittee. I am Caird Rexroad, 
the Associate Administrator of the Agricultural Research 
Service. I am speaking today on behalf of the Agricultural 
Research Service and the Cooperative State Research Education 
Extension Service in the Department. ARS is the Department's 
primary intramural research agency, and CSREES is the primary 
extramural funding agency of the Department. Before I begin, I 
would ask that my written statement be made part of the record 
and I will summarize my remarks.
    Mr. Cardoza. Without objection, so ordered.
    Mr. Rexroad. Thank you for the opportunity to appear today 
before the subcommittee to present testimony about USDA efforts 
to address the problem of colony collapse disorder, known as 
CCD. I will provide you with a brief overview of the disorder 
as a well a summary of our research and our efforts addressing 
the problem.
    Beginning in October of 2006, beekeepers became alarmed 
that honey bee colonies were dying across the continental 
United States. Reporting unexplained losses of 30 to 90 
percent, these outbreaks of unexplained colony collapse pose a 
threat to the pollination industry for production of commercial 
honey, and the production of at least 30 percent of the 
Nation's crops. Furthermore, with pests and diseases of bees 
increasing over the last two decades, we have reached a 
critical point for the bee industries. ARS and CSREES are both 
conducting and funding research to determine the cause of the 
sudden collapse of bee colonies.
    We have a number of theories we will talk about briefly. 
One important thing, as you mentioned, is immunosuppression and 
stress on bees. Based on research by the Colony Collapse 
Disorder Working Group, a collaboration of researchers from 
government, universities and other partners, we believe that 
some form of stress may be suppressing immune systems of bees, 
ultimately contributing to CCD. I will discuss what we consider 
four causes of bee stress, Varroa mites, pathogens, migratory 
stress, and pesticides, as well as what we are doing to counter 
these stresses.
    Varroa mites invaded the United States in the 1980s and 
have been linked to a serious colony decline. If you will 
notice when you walk through the clover in your barefoot, you 
will no longer be stung by a honey bee; it is very unfortunate. 
During this time, USDA has put considerable effort in finding 
solutions to the varroa crisis. ARS labs have developed several 
control methods and researchers are conducting genetic research 
to breed bees that are resistant to mites. Work funded by 
CSREES through the National Research Initiative is addressing 
suppression of varroa mite reproduction.
    Pathogens also may be contributing, either by killing bees 
directly or compromising their immune system. Bee viruses, of 
which we know not nearly enough, can cause brain pathologies 
and contribute also to immunosuppression. We need better tests 
and research on bee viruses. We need to know the role of varroa 
mites, also, in transmitting viruses or enhancing viral 
diseases of bees. A new species of Nosema, microsporidian, may 
be relatively new to this country. We are trying to determine 
that and to correlate its appearance and distribution with CCD. 
If we understand these things better, we will try to replicate 
CCD and we will develop interventions to reduce the impacts of 
these stresses on bees. CSREES is funding grant investigations 
on genetic and cultural methods in controlling Nosema apis 
disease, as well as study mechanisms of disease virulence, 
transmission and epidemiology in honey bees.
    Migratory stress may also contribute to CCD. It is common 
for as many as 10 percent of the colonies to die after 
transportation, with losses of 30 percent possible after the 
pollination of some crops. ARS has recently begun investigating 
the effects of migratory stress and will continue to do so.
    Many pesticides are toxic to bees. Some may cause bee 
colonies to be susceptible to stress and disease, and others 
may impair neurological function and we know that the loss of 
bees from the colony is a sure sign of CCD. Stress and 
impairment of bee brain function may be then linked to this 
disappearance. We plan to study the effects of pesticides on 
bee brains and to test the effects of pesticides on bees in the 
apiary. Those studies will also determine if pesticides are 
harming bees in the field.
    While we continue to look for the causes of CCD, ARS will 
initiate a multi-year project to improve bee health by 
improving nutrition of the colonies to increase their ability 
to handle stressful situations. Mr. Chairman, ARS and CSREES, 
in collaboration with our other agencies, private institutions, 
and with the universities, conduct and fund research that 
addresses the paradigm surrounding CCD. We are pleased to be a 
part of this effort to improve bee health and prevent colony 
collapse syndrome, and to support the pollination industry, 
beekeepers and agricultural producers across the Nation. We 
thank you for the opportunity to share our work with you, Mr. 
Chairman. This concludes my remarks. I would be pleased to 
answer questions that you make.
    [The prepared statement of Mr. Rexroad appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you. Go ahead.

 STATEMENT OF DIANA COX-FOSTER, PH.D., PROFESSOR, PENNSYLVANIA 
                        STATE UNIVERSITY

    Ms. Cox-Foster. Chairman Cardoza and members of the 
Subcommittee on Horticulture and Organic Agriculture, thank you 
for this opportunity to appear before you today representing 
members of the Colony Collapse Disorder Working Group. I am 
Diana Cox-Foster, a professor at Penn State and having over 25 
years experience in insect physiology and pathology. For the 
last 10 years, I have been extensively researching the 
interactions of honey bees with varroa mites and viruses and 
other diseases, asking how the colonies are collapsing.
    My expertise is one of the reasons that beekeepers first 
approached me in November 2006, with colonies having unique 
symptoms and deaths. These were the first recognized instances 
of colony collapse disorder. The Colony Collapse Disorder 
Working Group is a collaboration among researchers having 
diverse expertises and coming from land grant universities, 
state departments of agriculture, and USDA-ARS. In addition, 
experts from Bee Alert are performing research. The goals of 
the CCD Working Group are to identify potential causal factors 
in the collapses, identify these factors that underlie the 
collapses and reproduce the CCD symptoms, and finally, devise 
preventative measures to disrupt CCD and ensure strong colonies 
for pollination. As you know and have heard and read in the 
written testimonies presented by others and myself, I will 
summarize what we have been doing.
    Honey bees are essential for the pollination of many crops, 
as you know. Through surveys and field confirmation and unique 
symptoms found in colony collapse disorder, we have found that 
CCD is a problem facing all beekeepers and will have a major 
impact. With the recognition that we had a unique problem, many 
of our researchers used their own monies to begin attacking 
this problem. We also gained emergency funding that has allowed 
us to quickly expand our research. This funding has come from 
the Foundation for Preservation of Honey Bees, several 
beekeeper organizations and the National Honey Board. We 
greatly appreciate this funding. We are also actively seeking 
additional federal and state funds to allow us to perform the 
necessary studies in a timely fashion.
    We have used these funds to begin describing the symptoms 
of CCD and defining the problem. This has been done through 
examining bees for known pathogens, parasites, and documenting 
hive conditions. Multiple case studies and surveys have been 
performed to try to determine the extent of the problem. As a 
top priority, we have made extensive collections of samples of 
bees, wax, honey and pollen stores from both CCD and non-CCD 
beekeeping operations across the country. We have agreed to 
share the samples amongst the researchers and also the data. 
Nearly all our multiple analyses are being coordinated and will 
correlate multiple parameters.
    We have been actively determining the causes of CCD and 
have considered all possible factors. Based upon our 
preliminary data, we have focused on three hypotheses. First, 
we have asked, are new and reemerging pathogens responsible for 
CCD? Recently, we know that many pathogens have the ability to 
knock out the immune defenses of their host. Among those that 
we found in CCD bees, none have been recognized to have these 
abilities to impair the immune system, and we don't think that 
any of the normal bee pathogens are the direct causes. We have 
identified several routes of entry in the United States that 
may have permitted inadvertent introduction of new pathogens.
    In collaboration with Dr. Ian Lipkin at Columbia, we are 
identifying the microbes and viruses associated with the CCD 
bee colonies. We predict that any pathogens that may be linked 
to the collapses will be common in operations having CCD and 
will not be found in operations lacking CCD. In this analysis, 
we expect to isolate many new organisms that we didn't know 
where there in bees. We will need to do extensive studies to 
try to figure out which of these important and find new methods 
to control these pathogens. With samples from these same 
colonies, we are combining these studies with others, using the 
newly developed knowledge of honey bee genomics and molecular 
physiology. We are letting the bees themselves tell us how they 
are being affected and what are the most likely causal factors 
underlying CCD by asking what genes are being turned on and off 
in the bees. We expect these analyses will reveal how the bees 
are responding to potential pathogens, environmental toxins or 
other stressors.
    The second hypothesis is that we are asking, are 
environmental chemicals impacting bees and triggering CCD? It 
is known that environmental toxins can impair the immune 
systems of animals. In insects, sub-lethal effects of 
insecticides are increasingly being recognized as stressors 
that may be impacting immune defenses and other physiology. We 
are asking, what chemicals are present in the hives, wax, honey 
and pollen stores? Given our surveys, we have failed to 
identify any common chemicals being used at colonies that are 
experiencing CCD, and we expected environmental contaminants. 
Of particular concern are pesticides being widely used to 
control insect pests in agriculture, urban environments and 
animal systems. Among these are the neonicotinoids, a class of 
pesticides that have been extensively adopted for pest 
management. This class of pesticides has extremely low toxicity 
in humans and other vertebrates and is highly effective in 
controlling insect pests. However, these chemicals are known to 
be highly toxic to bees and other pollinators. Research has 
suggested that these pesticides can move through the plants to 
become localized in pollen nectar at concentrations that can 
affect bees. Research is warranted to determine how these 
pesticides affect bees and other pollinators at the 
concentrations found in the honey and the pollen. It is 
essential to determine whether pesticides are a causal factor 
in CCD symptoms.
    The third hypothesis is the combination of stressors 
weakening bee colonies and allowing stress-related pathogens to 
cause final collapse. Several members of the working group are 
asking what stressors are part of the migratory operations. 
Recently, migratory beekeepers have told us they experience 
regular significant losses of the honey bee colonies. By 
following the migratory colonies and their bees and correlating 
the healthy performance to operational practice from stresses, 
we will gain baseline information. We expect to develop ways to 
overcome these stresses to ensure adequate pollination of 
crops.
    Finally, the CCD Working Group recognizes the importance of 
trying to breed bees that are more resistant to diseases and 
the impacts of parasites such as Varroa Mites. We are asking 
how genetic diversity in bee populations correlates with CCD 
and resistance traits. Developing new genetic strains of bees 
may be essential to the future of beekeeping.
    In closing, Mr. Chairman and members of the Subcommittee, I 
thank you again for inviting me to review the colony collapse 
disorder affecting honey bees and to highlight some of the 
ongoing activities and research of the CCD group. As you have 
heard, we have formed extensive collaboration among researchers 
of diverse expertises and affiliations, who bring together 
federal, state and land grant university research to target 
real-world problems with cooperative extension providing a 
bridge between the beekeepers and those dependent on 
pollination and the research community. It is clear that we are 
facing several challenges in unraveling the causes of CCD and 
developing preventative measures to ensure the health of bees 
and the pollination industry. I would be happy to answer any 
questions you may have.
    [The prepared statement of Ms. Cox-Foster appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Please proceed, Doctor.

 STATEMENT OF MAY R. BERENBAUM, PROFESSOR AND HEAD, DEPARTMENT 
   OF ENTOMOLOGY, UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Ms. Berenbaum. Good morning, Mr. Chairman and Members of 
the Subcommittee. Thanks for inviting me to talk to you about 
colony collapse disorder and related issues affecting American 
agriculture. I am May Berenbaum, the Swanlund Professor and 
head of the Department of Entomology at the University of 
Illinois at Urbana-Champaign, and I have been a member of the 
National Academy of Sciences since 1994.
    The principal focus of this hearing is colony collapse 
disorder, the sudden inexplicable disappearance of millions of 
honey bees across the U.S. But to understand the magnitude and 
impact of this problem, it must be placed in the broader 
context of pollinator decline in general. Approximately 3/4ths 
of the world's 250,000 flowering plants require mobile animal 
partners, or pollinators, to reproduce. Over the past two 
decades, concern has grown around the world about declining 
abundance of pollinators of all descriptions. During this 
period in the United States, the honey bee, the world's premier 
managed pollinator, experienced dramatic declines. Between 1947 
and 2005, colony numbers declined by over 40 percent, from 
almost six million to less than 2\1/2\ million. Thus, the 
National Research Council, the research arm of the National 
Academy of Sciences, convened an ad hoc committee funded by the 
USDA, the U.S. Geological Survey, and the National Academy of 
Sciences itself, to document the status of pollinators in North 
America. I served as chair of that committee.
    Our committee of 15 experts quickly established that there 
is an extraordinary paucity of reliable data on pollinator 
populations. This dearth applies even to honey bees, which is 
surprising given that they are essential six legged livestock 
that manufacture agriculture commodities, honey and wax, more 
importantly, contribute to agricultural services. Pollination 
of nearly 100 crop species in the United States could 
collectively make up 1/3 of the U.S. diet, including the most 
high-value healthy foods. Although economists differ in 
calculating the exact dollar value of honey bee pollination, 
virtually all estimates range in the billions of dollars. It is 
difficult to think of any other multi-billion dollar 
agricultural enterprise that is so casually monitored. Methods 
for estimating honey bee availability for pollination are 
outdated and inadequate.
    Since 1947, the National Agricultural Statistics Service 
has conducted an annual survey of honey bees and conducts a 
census every five years, but the focus of data collection has 
been honey production and not pollination. This was appropriate 
60 years ago, but today the value of pollination greatly 
exceeds the volume of honey production. Nor do these surveys 
consider colony health. The magnitude of decline in honey bee 
abundance and efficacy, despite six decades of data collection, 
cannot be definitively evaluated. Bee health is utterly 
critical here. CCD is just the most recent of an unrelenting 
series of devastating problems affecting American honey bees. 
Introduced pests and parasites, microbial diseases, pesticide 
drifts and competition with Africanized bees have all 
contributed to the decline since assessments began.
    Shortages were sufficiently acute that in 2005, for the 
first time in 85 years, since passage of the Honey Bee Act of 
1922, bees were imported from outside the United States to meet 
pollination demand. Importing bees is risky and it increases 
the chances of introducing new pests and parasites. Even before 
CCD, we estimated, if honey bee numbers continued to decline at 
the rates documented from 1989 to 1996, managed honey bees in 
the United States will cease to exist by 2035. Historically, 
wild honey bees have provided pollination for both natural and 
managed plant communities. Parasite infestations have 
eliminated wild colonies in many areas, but without any 
systematic monitoring, there is no way to know how many are 
left.
    Committee recommendations include the changing data 
collection practices to account for pollination service and 
colony health. Increased investment is also needed to encourage 
innovative approaches to keeping bees healthy and improving 
genetic stocks. Many aspects of contemporary apiculture remain 
largely unchanged since the 19th Century, in part, due to low 
priority accorded to honey bee research in the agricultural 
sector. These are living in 19th Century housing comparable to 
dairy barns without electricity and running water.
    The committee concluded its deliberations before CCD 
appeared, but enormous losses incurred were predictable. Over-
reliance on one managed non-native species is inherently 
unstable. CCD has accelerated the rate of colony loss and 
beekeepers as well as growers need immediate relief. Many 
investigators, as Dr. Cox-Foster mentioned in the CCD Working 
Group, are donating their own time and money to solve this 
problem, and altruism is not a sustainable long-term strategy. 
Completion of the honey bee genome in October 2006 provides 
extraordinarily powerful new tools for diagnosed and 
development of management strategies, but new federal 
competitive funding to support multi-disciplinary research is 
necessary to enable and expand this limited pool of 
investigators. The proposed 2007 Farm Bill identifies specialty 
crops as a high priority for research. Most of these depend on 
insect pollination. Pollination sustainability should be a 
conspicuous component of this legislation. As well, a permanent 
surveillance program for parasites and diseases of honey bees 
is urgently needed to prevent the introduction of new pests.
    A consequence of relying overwhelmingly on a single species 
is that few alternative actively managed species exist. Wild 
pollinators are not exploited to any significant extent, 
either. Efforts to monitor honey bees may be inadequate, but 
efforts to monitor wild pollinators in North America are 
essentially nonexistent, despite the fact that wild pollinator 
contributions to crop pollination are worth $3 billion 
annually. Evidence indicates that some North American 
pollinator species have declined or even gone extinct. For many 
species, there is no evidence of decline because their 
populations have never been monitored. Systematic monitoring 
programs of wild pollinators in Europe have revealed dramatic 
declines in abundance and diversity. Monitoring is needed here 
to document changes in pollinator status. Wild pollinators 
maintain plant diversity and hence ecosystem diversity in every 
state in the country. Conserving America's pollinators will 
require economic incentives. The farm bill provides an 
opportunity to address this need by encouraging state-level 
natural resources conservation service offices to promote 
pollinator-friendly practices for all farmers participating in 
the USDA cost share programs, land retirement programs, and 
production and stewardship programs.
    Ensuring the security of our food supply is an explicit 
national priority. Although it is generally discussed in the 
context of vulnerability to attack from beyond our borders, 
food security faces a greater threat from within our borders; 
the overly optimistic deep-seated conviction that pollination 
resources will always be available. Armies of economists devote 
hours to calculate our energy need reserves, but there has 
never been a comparable effort to calculate our pollination 
reserves. Human technological innovation has not, in most 
cases, replaced or even improved upon animal pollinators and is 
unlikely to do so in the immediate future. As long as plants 
depend on pollinators, America depends on pollinators and right 
now they need your help. Thank you and I would be happy to 
answer any questions.
    [The prepared statement of Ms. Berenbaum appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you very much. Your testimony was quite 
enlightening. I will start off the questioning and for this 
first question, I will submit it to all three panelists. Some 
groups have speculated that pollen from genetically modified 
crops could be a contributing factor to the development and 
spread of CCD. What is your belief with regard to that 
question?
    Mr. Rexroad. Mr. Chairman, we have reviewed the literature 
related to the availability of GMO pollen and its use by bees 
and we do not find any significant findings that would suggest 
that GMO crops contribute to CCD.
    Ms. Berenbaum. That was also a finding of our committee, 
NRC committee, on size of pollinators. The review of the 
available literature didn't, not in the context of CCD, but in 
the context of honey bee decline.
    Ms. Cox-Foster. We have also been looking at that in our 
studies and what we have seen is that the reported toxins that 
are in these plants are very species specific, that they impact 
moths and butterflies and beetles, but there is no evidence 
that the impact bees and we have no evidence to suggest that 
the symptoms we have would be like those that you would expect 
to see with a BT toxin.
    Mr. Cardoza. Thank you. Dr. Rexroad, in your testimony, you 
state that the Varroa mite is becoming resistant to many 
miticides. Can you discuss the alternative miticides under 
development and how your research is working to minimize the 
long-term resistance?
    Mr. Rexroad. We think that, in the long term, that the real 
approach is to develop genetic resistance in the bees. One of 
our main strategies right now is to breed bees and introduce 
gene lines where they will have resistance to Varroa Mites so 
that the bee itself can overcome the resistance, can overcome 
the Varroa Mites, as opposed to having to treat them with 
miticides.
    Mr. Cardoza. Okay. As well as a follow-up question, in your 
written testimony, you indicate that, in the future, ARS will 
involve researchers from all ARS labs with the CCD Working 
Group. Can you comment on that?
    Mr. Rexroad. Yes, it is our intention to be a full 
participant in the working group. We appreciate the leadership 
that we have had from working with the universities on this, 
and all of the labs have a different contribution to make. For 
instance, work on genetic resistance to Varroa mites done in 
our lab in Baton Rouge. Our laboratory in Beltsville has a lot 
of expertise in diseases of bees. So each one brings a 
different aspect or contribution to working on CCD.
    Mr. Cardoza. What is your timeframe for making this happen? 
It seems to me that this is an urgent question, so it is 
imperative that we get to work on this right away.
    Mr. Rexroad. It is an ongoing process. We had a very early 
response to the challenge of CCD, where a number of our 
investigators have already worked with, the consortium, and 
have already gone out to assess what the problems might be 
associated with CCD, and are working closely with the 
universities on that. They are continuing the work they do in a 
very focused way on CCD, on Varroa Mites and on others. And in 
addition, we have put together a long-term project related to 
feeding of bee colonies, where we hope that improved or 
enhanced nutrition will increase the bee colony resistance to 
whatever the CCD factors are. So it is an ongoing process, in 
addition to the strategic plan that we are looking for from the 
consortium group, which will help us focus our research in the 
future.
    Mr. Cardoza. I want to go a little deeper into this, Dr. 
Rexroad, because it seems to be that this is an urgent crisis 
that demands urgent attention. I understand there is a long-
term plan to get there, but it seems to me that there needs to 
be short-term urgency within the Department about this. Could 
you speak more specifically to the timelines with which you are 
planning to proceed?
    Mr. Rexroad. Yes, we do plan to proceed immediately with 
the nutrition studies, putting those in place, the long-term 
feeding studies. It is a five year study that will begin as the 
funds are available. Within the Department, our state funding 
agency, CSREES, is also looking at what they can do in the 
short term on critical issues and then planning in the fall to 
have the ability to submit grants related to those issues, to 
be able to recognize what kind of requests or proposals might 
be best suited to serving this particular issue. So we are 
focusing the funds that we already have within labs. We are 
changing the projects that are currently ongoing to focus more 
specifically on CCD.
    Mr. Cardoza. I think we are going to hear in just a few 
moments from some of the beekeepers, that they believe that 
there is an urgent crisis impending, the CCD situation is bad 
and getting worse rapidly. I think one of my folks from my 
district is going to testify to the fact that just this year, 
when you normally see the beehives increase in size while they 
are in the orchard, they are decreasing. That indicates to me 
that Congress is going to be incredibly interested in how we 
can accelerate the research into this problem in a much more 
rapid fashion that what I am hearing. It doesn't mean you are 
not trying to do a good job. I appreciate that. But I think we 
are going to need to have a lot more examination of how we can 
put some gas to the fire on this one and get it moving.
    The next question I have is best management practices are 
widely used in agriculture to address farm-level environmental 
protection issues while providing for economic returns. Are 
there recommended best management practices at a state or 
federal level for the management of bees currently in place?
    Ms. Cox-Foster. I know, within the State of Pennsylvania, 
that we have developed the best management practices and 
recommended those and I think that those extend outwards to the 
Federal areas here. Part of the problem with that best 
management practice is that Varroa, which has been the major 
killer in the last 20 years, that we are running out of 
controls or ways to keep that parasite in check and we don't 
fully understand what it is doing with the bee diseases. So 
there is a lack of effective controls for that various mite out 
there. But there are best management practices in place and I 
know that they are getting completely renovated all the time.
    Ms. Berenbaum. I don't know how much background you need, 
but there is a real challenge in managing honey bee problems, 
at least in part because they produce, well, honey production 
is for human consumption and therefore the use of pesticides 
has to take into consideration the fact that ultimately the 
product might end up in the human diet. Another problem is 
specificity. The varroa mite is an arthropod just like an 
insect. It is really challenging to develop an agent that will 
kill one arthropod that doesn't kill another arthropod. They 
are very closely related. And what makes this even more 
challenging is that honey bees don't appear to be very well 
equipped to deal with pesticides themselves. So this has been a 
thorny problem for a long time and we now have more problems to 
factor in.
    Mr. Cardoza. Thank you. I have several other questions, but 
at this time, I am going to turn it over to my colleague, Mr. 
Etheridge, from North Carolina. Chairman Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman, and let me thank 
you for being here today. You know, in my home State of North 
Carolina, we have always grown some fruits and vegetables, but 
in the last few years that has grown rapidly with our proximity 
with the country. So this issue is not only important, but it 
is alarming to us, too, because we are having some of the same 
problems. One of the themes I have heard to today, or an 
observation I have, I guess, from listening to the testimony is 
that we don't really know what is causing CCD, or at least 
there is no certainty about one thing that is causing it and I 
guess this problem has arisen relatively quickly. Is it a 
possibility that it could be something similar to the 1980s, 
when we had the mite problem that we have identified but never 
really figured out what we were going to do? So what can be 
done to maximize, I guess, federally-supported universities in 
the base research that we do? And I think question I would like 
to pose to Dr. Rexroad. We spend a lot of money with federal 
universities. Why can't we link those up in some of the things 
we are doing and utilize the dollars we now have out there?
    Mr. Rexroad. I think that is an excellent question and to 
some degree, I think that is happening right now with this 
working group, this consortium, that was mentioned a few 
moments ago by Dr. Cox-Foster, where a number of universities, 
plus our federal labs, are working together to answer the very 
question that you indicated--trying to discover, first, what is 
the primary cause of colony collapse disorder? So they have 
pulled their resources, their intellectual resources, and I 
think there will be opportunities over the next few months to 
pull some other resources, but part of that will be through 
applications for grants to the funding agencies. And in 
addition, we will focus ourselves on this issue and put out 
some resources in terms of nutrition and those kinds of 
interventions for the bee colonies.
    Mr. Etheridge. Well, let me follow that up because the 
chairman touched on it. Is there a short-term strategy and a 
long-term strategy or is it just a strategy?
    Mr. Rexroad. Do you want to answer that?
    Ms. Cox-Foster. So we have obtained some emergency funding 
and it is rather limited in scope. We greatly appreciate 
everything that we have gained. It is through the beekeeper 
organizations and the National Honey Board, to tackle this 
problem directly. So we have a gap that we foresee here in 
proceeding and going beyond our initial studies that we are 
looking at that causes this directly and fully resolving the 
issue here, and that is part of the problem. So as you may be 
well aware of, for the granting process, it usually takes a 
full year, at least, before you submit the grant and you 
actually get the monies to do the work. And at the national 
level here, there is a limited amount of monies out there to 
explore all insect-related problems, both at the field, the 
applied levels, and at the basic research, and the competition 
for those dollars has greatly increased. So the number of 
grants that are being funded, it is down below, I think, 10 
percent with USDA and we are competing and trying hard to 
compete with other federal agencies, like National Science 
Foundation, and even some researchers are finding a way to 
tailor their research to fit into National Institutes of 
Health. But there is this lack of where we can figure out how 
to get monies. We are, for some of us, figuring out how to gain 
state emergency funds, some of which are part of Homeland 
Security.
    Mr. Etheridge. Well, let me ask you a question. Who is the 
clearinghouse on this?
    Mr. Rexroad. Yes, if I may? Our federal funding agency, 
CSREES, they do have some short-term funds available under 
something called critical issues, which they will apply to 
looking at some of the issues of CCD and help the universities 
prepare for the granting cycle, which is a longer-term issue.
    Mr. Etheridge. The reason I asked that question is that, 
you know, we are reaching out to a number of places.
    Mr. Rexroad. Yes.
    Mr. Etheridge. And it seems to me that the USDA will be the 
ideal place to have a clearinghouse, because we are working 
together for one goal.
    Mr. Rexroad. That is certainly true. There are also multi-
state projects that already exist on bees, where the states do 
have some discretion in the use of those funds, so they can 
turn those immediately to CCD.
    Mr. Etheridge. And we are gathering that data at USDA, so 
we aren't repeating?
    Mr. Rexroad. Yes.
    Mr. Etheridge. Okay. My time is about out. Dr. Berenbaum, 
you mentioned something that I thought was probably a good 
idea, a best practice management plan for people who put their 
land in conservation programs like CRP. I always say this: it 
is a little bit easier to solve a problem if everyone pitches 
in. And there are a lot of people using these programs right 
now. What kind of things could these individual landowners do 
to help solve the problem or deal with this problem?
    Ms. Berenbaum. Well, there are a number of programs that 
provide opportunities for pollinator sustainability, for 
managing wild populations. One reason we may be so utterly 
dependent on this one species for partial pollination is that, 
through habitat loss, through urbanization and 
industrialization, we have lost native pollinators that used to 
provide this service for free, essentially. Among the possible 
programs, there are cost share programs at USDA include the 
Wildlife and Habitat Incentives Program, the Environmental 
Quality Incentives Program. The land retirement programs 
include the Conservation Reserve Program, the Conservation 
Reserve Enhancement Program, and Conservation Security Program. 
CRP can explicitly incorporate pollinator habitat into the 
environmental benefits index that is used to evaluate land 
parcel proposals, and CSP can incorporate the value of that 
pollinator habitat development into its determination of the 
stewardship tiers that are the basis for federal payments. USDA 
cost share and land retirement and product stewardship programs 
should be available to producers of all commodities that depend 
on pollinators. There is an organization called Xerces Society 
for Invertebrate Conservation and I am at the moment president 
of this society. It has as its mission promoting conservation 
of some of the world's least charismatic animals and it has 
been working with the Natural Resource Conservation Service to 
incorporate native pollinators into farm bill programs at the 
national and state level. And I know the Xerces Society is 
happy to offer its time and expertise to congressional staffers 
for language for the farm bill and its programs to help achieve 
this goal. But again, pollinator management sustainability 
programs are a long-term solution to this pressing problem.
    Mr. Etheridge. Thank you.
    Mr. Cardoza. I am going to turn this over in just a second 
to my colleague, Mr. Davis, from Tennessee, but I want to make 
this observation now so that you might possibly integrate it 
into your testimony as we go forward. A few years back when I 
was in the state legislature in California, we discovered the 
glassy-winged sharpshooter problem in Temecula, California. We 
went down there and did a hearing on it. The standardized 
method by which we were doing university research for that 
particular pest wasn't adequate for dealing with the crisis, so 
we had to come up with, very quickly, increased emergency 
methods to deal with that problem. We did that through state 
funding, through industry funding and finally the federal 
government caught up. This time we are finding this problem 
more on the federal level first, but we need to bring--it is 
sort of like ringing a fire bell and having all hands come to 
fight the fire together. It is time to call up the bucket 
brigade to get everybody pitching in and so that is why I am 
making this observation. I am going to turn it over to my 
colleague, Mr. Davis, for his question period.
    Mr. Davis. Thank you, Chairman Cardoza, for having the 
hearing today on what I think is an important issue for many 
different reasons. I will describe my childhood somewhat as I 
grew up. Most of us certainly treasure those days when we were 
back on the farm. In the area that I lived in, the neighbors up 
the stream and down the stream from us were about a half a mile 
apart, and my brother and sisters and I, at the first sign that 
the ground started cracking, would go barefoot, and to me the 
pesky things called honey bees that loved to get on the clover 
tops that were blooming in the spring, would often remember me 
that I had no shoes on by stinging the bottom of my foot. So as 
far as I was concerned, had there appeared a time when we were 
losing bees, I probably would have been delighted at that, 
because it would have meant that I wouldn't have been irritated 
by the swollen foot that I would later have.
    But then I went to school and I was amazed to realize how 
important those honey bees were to fruits and vegetables, to 
pollination. I then started watching those bees as they would 
bury up into honeysuckle vines and lilac bushes that my 
grandmother would raise, the snowball trees that had big white 
blooms on them, and I was fascinated that they were doing part 
of nature's work and that without those bees, that a lot of the 
creation that we enjoy would probably cease to exist. And so I 
became aware of how everything works together in this world 
that we live in and that these certainly are a major part of 
that, as far as pollination. So I started looking somewhat with 
a little disdain almost 30 years ago, when we started losing 
colonies of bees and then just recently started again hearing 
that we are losing bees, maybe at a more rapid pace. Actually, 
colony collapse disorder may be occurring more rapidly now than 
it did some 30 years ago. Certainly I hope that this is not a 
phenomena that will destroy our bee population in America, that 
will, I think, be a major negative impact on agriculture in 
America and certainly our environment.
    But I guess the question I wanted to ask, after defining my 
childhood that all of us probably can remember, as we look at 
existing USDA pollinator research programs and see basically 
just this out-of-the-blue problem that we have today, do you 
think that we have adequate researchers able to handle this or 
other phenomena that may happen, Mr. Rexroad?
    Mr. Rexroad. I think it is always a challenge to have those 
resources immediately available to switch gears and to take 
this on. We believe that we do have significant resources to 
apply to this problem. Over the last several years, we have had 
about $9 million in bee research in ARS. The amount of funds 
provided by the Cooperative State Research Service, CSREES, 
rather, has been between $1 and $3 million, depending on the 
years and kinds of grants that have been applied. We are taking 
a look at this and seeing what kind of new resources might be 
needed and looking to future budgets as a way of strengthening 
our own program.
    Mr. Davis. I think one of the best bargains that the 
American consumer has, taxpayer has provided for the American 
consumer and it has been the farm programs that we have had to 
supply the good, safe, abundant source of food, pretty much 
everlasting like an everlasting spring at an affordable price. 
I notice that as we look at the generic term that we use, mad 
cow disease, certainly in beef cattle production, we jump very 
quickly to try to shut down any fear among the American public 
consumer and to the beef cattle producer that if there is a 
problem, that we, with the USDA, have resolved that and again, 
obtained the confidence of the American and the world consumers 
of American beef. I certainly hope that we have adequate 
researchers in USDA that would look at all of the problems that 
we may face in the future, and especially as we have, the last 
30 years, increased dramatically our pesticide and herbicides 
that we use in agriculture production. I thank you all for 
being here and thanks for allowing me to be a part of the 
discussion on this important issue today.
    Mr. Cardoza. Thank you, Mr. Davis. I'd like to now ask a 
question of Dr. Berenbaum and Dr. Cox-Foster. Both of you have 
raised the need for better data collection and pollination 
activities and colony health, particularly the need for having 
accurate annual surveys of bee colonies. Both of you assert 
data collection to be a critical component to monitoring the 
health of pollinators. Can you tell the committee what the cost 
of such a survey might be? And Dr. Rexroad, you are free to 
chime in, as well.
    Ms. Berenbaum. Interestingly, that is not one of the issues 
we discussed in our committees, what the cost of implementation 
would be. But just to put this in context, you know, there is 
no free lunch, essentially, and the U.S. Ag economy has been 
benefiting from, I guess, the altruism of honeybees in a sense 
that for decades, pollination services were not paid for. They 
were assumed to be available for free.
    There is controversy as to putting a dollar value on 
pollination services and the number that is frequently quoted 
is $14 billion. That is from a study that is already 10 years 
old. I don't know what that would be in 2007 dollars, but 
averaged over the years, this is billions and billions of 
dollars. $9 million may sound like a lot, but this is a multi-
billion dollar enterprise. It just is diffuse and basically is 
intriculated throughout the entire ag enterprise in the United 
States.
    One reason it is difficult to rally those most directly 
affected, I mean, most directly affected are beekeepers, but in 
reality, bees and other pollinators are an essential component 
of over 90 crops in North America.
    Mr. Cardoza. All right. We are going to have to keep our 
answers just a little bit short because we have an impending 
vote. No problem. Thank you very much for your answer, though. 
Dr. Cox-Foster.
    Ms. Cox-Foster. So at a recent meeting with the Colony 
Collapse Disorder down in Florida, we did discuss a survey on 
what the costs would be. We came up with the estimated value of 
at least a million dollars. And part of the problem that we 
face is that within different states, we no longer have state 
apiaries in place who would help to facilitate this and we have 
many obvious beekeepers, sideliner beekeepers out there that we 
need to also monitor and learn what they are doing. So it will 
be an extensive issue and also one in which we need to respect 
and maintain the confidentiality of some beekeepers for 
security reasons.
    Mr. Cardoza. Very good. Thank you. Dr. Rexroad, do you 
agree with this? And I am going to ask my last question at the 
same time, so you can answer both in time expediency. In your 
testimony you noted that a request to USDA/APHIS for national 
honeybee pest surveys was declined last year. Do you know why 
that request was denied?
    Mr. Rexroad. I will answer the second question first and we 
can find that information for you, but I don't know right now 
why it is, but I do think there are two different approaches to 
answering the question of how we should do surveys. One is the 
question of within NASS, the statistical service of whether or 
not we should change that and we don't know what the cost would 
be of changing that from focusing on honey as the commodity as 
opposed to the pollination services.
    I think an alternative way to look at that, though, is to 
look at this and we look forward to some more information from 
a consortium that Dr. Cox-Foster is part of, looking at this 
scientifically to discover, in a survey system, what the 
problems are, the direct problems are with the bee colonies.
    Mr. Cardoza. Thank you. I now want to recognize my 
colleagues. As you have noted, they have gotten back from the 
White House. They have had a very busy morning and I appreciate 
their attendance. I turn it over to my Ranking Member, Mr. 
Neugebauer.
    Mr. Neugebauer. I thank the Chairman and I will submit my 
opening statement for the record, so we will get into 
questions.
    [The information appears at the conclusion of the hearing.]
    Mr. Neugebauer. Dr. Rexroad, does the USDA regulate the 
interstate movement of honeybees and honeybee pests and if not, 
why not?
    Mr. Rexroad. APHIS has the authority to regulate the 
movement of honeybee pests and of the colonies if they are 
contaminated with a pest. In particular, I might mention that 
they, at one point, when Varroa mites were discovered in the 
United States in Wisconsin apiary, did for a short time 
restrict the movement of colonies. However, what they 
discovered subsequent to that was that this pest was widely 
spread throughout the United States and that there was no 
benefit to restricting the movement of those colonies, but they 
do have the authority.
    Mr. Neugebauer. Okay. My second question is along the same 
line. From where are we allowing the importation of adult 
honeybees and how do we justify allowing these importations?
    Mr. Rexroad. Currently, we allow the importation of 
honeybees from Australia, New Zealand and Canada. In each case, 
there has been a risk assessment done by APHIS, looking at the 
types of pests that are prevalent in those countries, determine 
whether or not they are free of pests and, in addition, if they 
do have pests, whether or not those are the same pests that are 
present in the United States already, so that they wouldn't add 
an additional burden to the bee population.
    Mr. Neugebauer. And have you determined any problems? I 
mean, do you think we are doing a good job of inspecting these 
and that we are not bringing a problem from somewhere else into 
our country?
    Mr. Rexroad. I think the risk assessments would suggest 
that we are doing a good job. In a very specific way, though, 
what the specific inspections are, I couldn't speak to right 
now.
    Mr. Neugebauer. This is to the entire panel. This 
phenomenon of CCD, is that a problem just in the U.S. or is 
this a problem that is going on in other parts of the world? 
And just go down the panel there.
    Ms. Cox-Foster. So if the CCD, of the surveys that we have 
been doing, we have been asking if these unique symptoms that 
we find in these colonies that collapsed are present. We find 
that they are occurring across the continental United States. 
Recently, we have reports out of Canada that they have the 
exact same symptoms and collapses ongoing there. There are 
other collapses ongoing in other parts of the world. As we can 
determine right now, they don't match these exact same 
symptoms. But I think we need to further define that and get 
their researchers on board with what we are seeing.
    Ms. Berenbaum. I know there has been some concern in 
Germany over inexplicable bee mortality, but again, whether it 
is the same phenomenon or not, it is difficult to ascertain if 
we don't know what is causing this phenomenon.
    Mr. Neugebauer. Do you think there is collaboration going 
on with these other countries to talk about some of these 
issues and to put the sides together?
    Ms. Cox-Foster. I know that I have been personally 
contacted by people from other countries, researchers, to ask 
whether we are seeing the same thing and I know that Dr. Jeff 
Pettis, who is USDA/ARS, has also been contacted and involved 
in these discussions. Likewise, other members of the CCD 
working group are actively involved, but I think it is a 
growing problem. There are people involved in the CCD working 
group that we have been deluged with media attention, including 
media and questions from outside the United States, that this 
is a global issue and being recognized as a problem.
    Mr. Neugebauer. Dr. Rexroad, I guess a question I would 
have is, is USDA collaborating with the agricultural entities 
and ministries in some of the other countries? Is there some 
ongoing dialog at that level?
    Mr. Rexroad. On the research agency level, most of the 
dialog is scientist to scientist. These folks are very 
involved. They know each other. The worldwide community of 
people that do this kind of science is not large, so they are 
very aware. At a higher level, at the ministry level, probably 
less. We rely very much on the scientists keeping those lines 
of communication open and providing us information on what the 
issues are and what approaches others are doing, using.
    Mr. Neugebauer. I believe my time is about to expire.
    Mr. Cardoza. Thank you, Mr. Neugebauer. I appreciate your 
questions. I have one final question for the panel. That would 
be we have documented pretty well today the decline in 
organized hives and the business of beekeeping. You also 
testified, however, that there has been precipitous declines of 
wild beehive activity. Could you all speak to that? And as you 
hear, we have votes coming up, so we will take this as our last 
question. We will take a recess at the end of your answers and 
then we will come back after votes and reconvene the hearing to 
hear the second panel.
    With regard to the wild bee question, please.
    Ms. Berenbaum. Again, the results of the NRC study of 
mostly documented the scarcity of data, but those few examples, 
the most charismatic species are known to have experienced 
decline, including some in your home State, actually. There is 
one bumble bee species that hasn't been seen; it is thought to 
have gone extinct, which actually happens to be a crop 
pollinator, as well.
    So there is a taxonomic impediment and an unfortunate 
situation where we don't even have an ability to assess the 
diversity of wild pollinators. But there are a number of 
surveys that have been done, long-term monitoring surveys that 
have been done in England and in Belgium and elsewhere in 
Europe, cooperatively, among the European Union that clearly 
demonstrate that there are many different groups of pollinators 
that are experiencing declines.
    Mr. Cardoza. As you discuss this, could you also discuss 
the potential impact, whether there is or is not any impact 
that you know of from the Africanized bees that came north a 
few years ago and I assume are still with us?
    Ms. Cox-Foster. So I could address that. With the 
Africanized bees, it is interesting that they seem to be much 
more resistant or refractory to the Varroa Mites, themselves. 
And in those areas where the Africanized bees are, namely, in 
Arizona, they are not seeing this collapse ongoing in those 
colonies. So there is a chance there that there are genes 
present in that particular strain of Apis Mellifera, the 
honeybee that could be utilized or directed towards breeding a 
more resistant bee strain. So the Africanized bee, by itself, 
doesn't appear to be impacted by the Colony Collapse Disorder 
right now.
    Mr. Cardoza. Can Africanized bees be used to pollinate and 
are they a threat to the general population?
    Ms. Cox-Foster. So the researchers I know at the Tucson BEE 
Lab, Gloria DiGrandi-Hoffman, swears by Africanized bees and 
that they are great pollinators and wonderful. You do have to 
maintain certain size limitations on the colonies in order to 
have them be effective pollinators and not present extreme 
defensiveness that they can exhibit, so there is potential 
there to manipulate them, but there is also potential there to 
get genetic stock away from the defensive traits to be 
incorporated in our more gentle European strains.
    Mr. Rexroad. The evidence that we have currently on the 
Colony Collapse Disorder and its association and non-
association with wild bee colonies is pretty much anecdotal. We 
think it is an important question. It is a proper one to grab a 
hold of because we don't have somebody overseeing those bees on 
a daily basis to see the bees disappear and not be present. But 
we do think it is an important question. We are hoping it is 
one that the consortium will spend some time on, also.
    Ms. Cox-Foster. We do have the reports from recognized 
researchers at Harvard who have made observations and relayed 
them to us that they have seen collapses or deaths of bees from 
probably feral colonies, that there are no managed hives 
around. So it is an issue that we need to address.
    Mr. Cardoza. Clearly, there has been a compelling case for 
more research to be made this morning on this first panel. 
Thank you very much for your testimony. We will reconvene the 
hearing directly after the last vote on the floor in the House. 
Thank you very much. This hearing is temporarily recessed.
    [Recess.]
    Mr. Cardoza. Mr. Neugebauer just reminded me that things 
are buzzing around here today. The Chair would like to remind 
members that they will be recognized for questioning in order 
of seniority and those who were here at the start of the 
hearing, as they come back and trickle back in. After that, 
members will be recognized in order of arrival and I appreciate 
the members that are standing on this question.
    We would now like to invite our second panel to the table. 
We have with us today, as I introduced earlier in the hearing, 
Mr. Paul Wenger, First Vice President of the California Farm 
Bureau Federation, Modesto, California; Mr. David Ellingson, 
Commercial Bee Keeper, Ortonville, Minnesota; Mr. Gene Brandi, 
Legislative Chairman of the California State Beekeepers 
Association from Los Banos, California; Mr. Jim Doan, 
Commercial Bee Keeper, Hamlin, New York; and Mr. Richard Adee, 
Legislative Committee Chairman of the American Honey Producers 
Association, Bruce, South Dakota.
    Mr. Wenger, please begin when you are ready and welcome to 
the panel.

STATEMENT OF PAUL WENGER, FIRST VICE PRESIDENT, CALIFORNIA FARM 
                       BUREAU FEDERATION

    Mr. Wenger. Thank you. My name is Paul Wenger. I am a third 
generation farmer growing almonds and walnuts in Stanislaus 
County, which is west of Modesto in California. My sons are 
actively involved with me in the family operation, so I look 
forward to a long future of our family working the land. I am 
also, as you mentioned, Mr. Chairman, the first vice president 
of the California Farm Bureau Federation, a position that keeps 
me in close contact with farmers and ranchers throughout the 
State.
    The California Farm Bureau is the State's largest general 
farm organization, representing more than 90,000 member 
families. We represent producers of all commodities and of all 
sizes of operations. Most are family farms. This forces us to 
take a broad view of what is important and how what might 
affect one commodity will impact another. That is certainly the 
case with the topic of today's hearing. I appreciate the 
opportunity to address this committee. I commend you, Chairman 
Cardoza, and the committee, for taking time to review an issue 
that is very critical to us.
    I have to admit that in addition to my Farm Bureau duties, 
I have a personal interest, as well. As an almond grower and 
someone who pays $130 a hive to pollinate my crop, I am 
personally concerned about the health of the bee industry. Bees 
are the unsung heroes of our State's vibrant almond industry 
that has an annual farm revenue of more than $2.5 billion. Each 
year, in February and early March, our almond trees require 
honeybees, more than a million colonies statewide, to produce a 
crop. The bees come from California from all over the United 
States. This demand for bee colonies feeds into what is a 
national network of beekeepers.
    Each year, as growers, we worry about the supply of bees 
and what the weather will be during the critical pollination 
period. Our crop fortunes rise and fall on that outcome. The 
size of our State's almond industry has been steadily rising 
from 400,000 acres in 1985 to nearly 600,000 bearing acres 
today. At least 100,000 additional acres will be coming into 
production in the next few years.
    Almonds are almost unique to California. We are the 
dominant producer of almonds in the United States and around 
the world. Our State combines a special climate and 
infrastructure to maintain this dominance in an important, 
value-added product. I am sure that countries such as China, 
Spain or parts of South America would very much like to share 
in this market. So far we have been able to maintain our 
dominance, but a healthy and productive bee industry will be 
key to our continued success.
    While almonds may be the single largest commodity to 
benefit from bees, it is not the only one. There are scores of 
other crops that also have a crucial or strongly beneficial 
reliance on bees. The list includes melons, cherries, avocados, 
Bartlett pears, bushberries, kiwi, many apple varieties, 
cucumbers, plums, prunes, pumpkin, squash, ornamental plants 
and dozens of vegetable and flower seeds. Bees are critical to 
our alfalfa and Ladino clover seed industries. Alfalfa seeds 
drives the hay industry that supports a $4.5 billion dairy 
industry.
    We rely on bees foremost as pollinators, but California 
also has a thriving queen bee industry that supplies nearly a 
million queen bee packages to beekeepers around the country to 
revitalize their colonies. We produce more than 20 million 
pounds of honey annually. In 2005 the California honeybee 
industry generated $176 million in direct revenue, while the 
value of crops pollinated exceeded $6 billion and many 
associated jobs.
    While the role of bees grows in importance, the research 
and technical support side of beekeeping has declined. I know 
you can't always make a direct correlation between loss of 
research dollars and growing disease and pest problems, but it 
has to be more than coincidence that both are occurring today. 
We need answers to the parasitic mites and colony collapse 
problems, but the health issue and the state of the industry is 
of an even broader concern.
    Through attrition, we are losing apiculture expertise at 
the professional, research and extension levels through the 
United States. We are losing this infrastructure at a time when 
it is vital to the ability to respond to major bee health 
concerns.
    Let me provide some examples. Attrition has severely 
impacted the bee research program at the University of 
California Davis, with the loss of key researchers. Mr. Brandi 
will describe this in greater detail, but I want to at least 
point out that California Farm Bureau has urged UC Davis to 
appoint faculty in apiculture in the Department of Entomology 
and to ensure that a specialist position is filled upon the 
retirement of the current statewide apiculture specialist.
    When it comes to research there is a growing concern in the 
farm community over the dwindling support for production 
agriculture by the land grant universities. This is a trend 
that seems to exist across the board, including apiculture 
research. Stepped up efforts by the U.S. Department of 
Agriculture, ARS, on current health problems and other issues 
are vital.
    We have continually expressed to Congress our support for 
the four USDA-ARS bee labs. We join the American Farm Bureau 
Federation in supporting research at these regionally located 
bee research centers to find solutions. Just this past 
September we urged USDA to expedite its research effort to 
produce effective treatments controlling honeybee mites.
    Research will be the key to overcoming the current 
problems. I would urge this committee to spearhead the 
Congressional action to help restore the honeybee industry to 
full health. I want to thank you for taking the time on what 
some would think is a very minor issue, but has extremely large 
concerns in our agricultural industry, not only in California, 
but throughout the United States. Thank you.
    [The prepared statement of Mr. Wenger appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you.

       STATEMENT OF DAVID ELLINGSON, COMMERCIAL BEEKEEPER

    Mr. Ellingson. Chairman Cardoza and Members of the 
Subcommittee, my name is David Ellingson. I live in Ortonville, 
Minnesota, where I operate 3,700 colonies of honey bees for 
pollination and honey production. I ship my bees to both 
California and Texas for parts of the year. I also operate a 
business that processes beeswax for beekeepers.
    First, I want to express the thanks of our entire industry 
for the concern you are showing for our problems by holding 
this hearing and my personal appreciation for being invited to 
tell you my story. I have been in beekeeping all my life, 
having followed my father in the business. Over those years, 
like any other farmers, we have seen our shares of ups and 
downs, but now I am experiencing the lowest point of my 
beekeeping life.
    For many years we have wintered a portion of our bees in 
Texas, where the milder climates and earlier springs allow us 
to get a jump-start in spring, compared to Minnesota. Looking 
back over the years, I see we have had to increase the number 
of hives brought down each year to make up our numbers for the 
summer. 30-plus years ago we could depend on having a five to 
one split, that is we could haul 800 hives to Texas and able to 
split these into making 4,000 colonies. Today we are hauling 
around 2,000 colonies to Texas just to make up those same 
numbers for those 3,700.
    Now comes the winter of 2006-2007. We hauled 2,000 hives to 
Texas in the fall. We went through the colonies and fed them 
corn syrup and pollen substitute. The queens were starting to 
lay some eggs for new young bees. My observation at this time 
was the colonies were strong, the mite counts were very low. 
There were good amounts of food storage for the bees. I felt 
that following a good honey crop last summer and a good fall in 
Minnesota, that my bees were looking as good as I had ever seen 
in a long time. I even felt that we would have some surplus 
bees to sell to others.
    Now, we came back to Texas on January 5 to sort out the 
best colonies to ship to California to rent out for almond 
pollination. I found more hives than normal without bees. These 
hives still had food stores; honey, pollen. The colonies didn't 
starve to death. The percentage of small clusters was higher 
than expected. I know now that many of these colonies also were 
dying.
    We selected 808 hives and shipped them to California. By 
January 25, our beekeeper-partner in California reported that 
one-third of these colonies were gone and another third were 
too weak to rent. We then went and shipped out another 400 
hives to fill the contract. Within two weeks of delivery, 50 of 
these colonies had disappeared. These also had plenty of honey 
and pollen.
    My loss on the bees not going into the almonds is in excess 
of $60,000 plus freight, which is $9800 per load, that had to 
be paid without regard to the condition of the bees, once they 
arrived in California. The second load, which should have been 
worth more because there were more bees and they were in two-
story hives, should have netted me at least $26,250. So 
overall, I should expect to have a net profit of $6,600. Now, 
when I deduct my time and expenses of two trips to Texas to 
prepare the bees plus the wear and tear and loss of being in 
shipment, the final question becomes what will I have to work 
with when these bees come back to Texas?
    So far, instead of having surplus bees to sell, I have been 
buying bees, spending approximately $10,000 for bees to fill 
some of my equipment. Even so, I believe we will be running 
1,000 to 1,500 fewer colonies this year. That is 1500 hives 
with a possible 100 pound honey crop at 85 cents a pound, gives 
me another net loss of $127,500. I truly felt that we had done 
everything right this year. When you wake up at 2:00 in the 
morning and lie there wondering what did I do wrong? And then 
you talk to another beekeeper who has done the same thing and 
is not having the problems that we are, it will just about 
drive you nuts.
    There are things that we need. We need more beekeeping 
research. We need money today to analyze the samples that have 
been taken for these USDA and these university labs, today we 
need that money. We don't need it next year. Next year we might 
not have any bees. We don't know. We need more research. We 
need more scientists. We need an effective and efficient 
technology transfer of what the scientists find out and how we 
can get it into our bees.
    You know, a farmer has all the tools that we don't see. He 
has an agronomist, he has a soil sampler, he has all these 
things. Do you think that farmer can make the crop that he 
makes today if he didn't have those tools? We don't have those 
tools. We need those tools.
    I would like to conclude with a personal comment. This is a 
tough business. It is one that takes you away from home a lot, 
just like you here in D.C. We are a small industry, scattered 
across the country. If we are going to have a viable honey bee 
industry, we must have dedicated people who are willing to go 
the distance. But even dedicated people need assistance from 
time to time. I have been deep in debt from when my dad died. I 
will not put myself in that position again. Other facts are the 
banks have forever been cutting our lending because of defaults 
on other beekeeping practices.
    The median age of a beekeeper is over 50. A lot of them are 
on the brink of hanging it up. There is a glimmer of hope that 
we could, in some manner, improve the lot of beekeepers, the 
atmosphere in this industry would and could be greatly improved 
and we would see new, younger beekeepers moving in. I certainly 
would have chosen a better way to celebrate our company's 60th 
anniversary in the honey bee business.
    Again, I thank you for the opportunity to give my views of 
the Colony Collapse Disorder and what effect it is having on my 
business and those of my fellow beekeepers. Thank you.
    [The prepared statement of Mr. Ellingson appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you, Mr. Ellingson. Compelling 
testimony. Appreciate it very much. I am going to ask the 
committee's indulgence at this point and ask Mr. Doan to speak 
next. Ms. Gillibrand needs to leave for another engagement and 
so I am going to have you testify next so she can hear your 
testimony.

          STATEMENT OF JIM DOAN, COMMERCIAL BEEKEEPER

    Mr. Doan. Well, thank you, Mr. Chairman Cardoza and also 
Congresswoman Gillibrand. It is a real honor to be here today.
    My name is James Doan. I live in western New York with my 
wife and two children. I own and operated 4,300 hives of 
honeybees in the fall of 2006; that is what we started out 
with. Currently, I have 1,900 hives of bees left of the 
original 4,300. Those same hives we normally will rent out for 
pollination in western New York to do fruit and vegetable 
pollination. The hives are then transported down to Florida for 
the winter, where we do honey and also pollination down there.
    I consider this testimony a privilege and an honor to speak 
with you today concerning the seriousness and devastating loss 
of our honeybees here in the United States, but more 
importantly how I feel it is going to affect the infrastructure 
of agriculture here in the United States.
    In my business hive management is everything. My overall 
system has changed very little in the last 20 years, with the 
exception of treating hive pest management. However, the 
overall health of the bees has always been considered good and 
profitable. Starting in the spring of 2006, we began to see a 
change in our hive health. Not only was I seeing this, but many 
other beekeepers in western New York were seeing the same 
things.
    Typical scenario was the honeybees were not expanding in 
number and not making any honey. And finally, an empty hive or 
even in some cases, honey left behind. Yes, we had weather 
conditions in the Northeast in the fall of 2006 that were wet 
and cold, and many counties in New York were declared 
disasters. However, in the Northeast we have had wet falls 
before and still made honey.
    Honeybee losses across New York State this winter, right 
now, are being reported at 50 percent or more, with some 
operations reporting as high a loss as 80 percent. Because of 
the current cold weather, many beekeepers have yet to fully 
inspect their bees in New York, so the number of hive losses 
could escalate. To recoup these losses, a purchase of new hives 
or honeybee packages will have to be made.
    However, the breeders who sell these items have little or 
none which to sell. One breeder I spoke to could not deliver a 
package to me until May 15. That is late for apple pollination. 
I believe the availability of honeybees for pollination 
services this spring in New York will be very close, due to the 
reports still coming in from many area beekeepers.
    New York State inspection officials, when they inspected my 
bees for mites, found zero to little mites, both in New York 
and in Florida in 2005 and 2006, so I do not consider the 
Colony Collapse Disorder due totally to mites or other pests 
living within the hives.
    So what is it, then? Hot, cold, water, drought? We have had 
all these conditions in the past, but never with all these 
consequences, and not every beekeeper throughout the country 
had the same type of conditions, yet everyone is still losing 
honeybees. This problem does seem not to be in one region and 
we have to include Canada in our discussion. So what is 
different? I don't know, but pesticides at sublethal doses need 
to be looked at.
    We have chemicals being used today that are different than 
materials in the past. In France, in May of 2004, the seed 
treatment GAUCHO was removed for use because number one, and I 
quote, from the report from Duquesne and Pastor University 
report, ``The results of the examination on the risks of seed 
treatment GAUCHO was alarming. The treatment of seeds by GAUCHO 
is a significant risk to honeybees in several stages of life. 
The consumption of contaminated pollen can lead to an increased 
mortality in care-taking bees.''
    GAUCHO contains the active ingredient Imiclacloprid. 
Materials with Imiclacloprid in them, in the last couple years, 
are labeled for use in just about every fruit and vegetable 
that I pollinate. Could this be the problem? I don't know. 
However, in France, the year before GAUCHO was taken off the 
market one-third of the bees in their country died. They have 
not reported any significant losses since the removal of that 
product from the market.
    I firmly believe we need extensive additional research that 
confirms what this Colony Collapse Disorder is and any further 
repercussions that may come from this. We need this now. I know 
that Penn State University is working hard on this problem, as 
other honeybee labs across the country are also doing. However, 
the equipment being used is antiquated. Our industry needs 
government research dollars now.
    The economic impact on my operation alone will cost me over 
$200,000 just to replace the honeybees that I have currently 
lost. I do not know if I even will have enough bees to cover my 
pollination contracts in New York. This also has impacted my 
income from honey production and my pollination service for the 
reduction from this lack of bees.
    The United States is looking at the potential loss of the 
pillar in agriculture. Agriculture in the whole United States 
is dependent on honeybees. If we cannot survive as a beekeeping 
industry in this country, then there will be no agriculture 
community here in this country. If this Colony Collapse 
Disorder is allowed to continue, we could be looking at 100 
percent dependency on foreign countries for feeding the 
American public. In my opinion, this real possibility is 
unacceptable.
    In conclusion, I strongly urge that my government 
officials, by funding for honeybee research, that we also look 
at getting made public the crop insurance for beekeepers and 
finally, I ask for help in recouping our losses from this 
problem, since we do not have crop insurance. I thank you for 
your time and support for our industry.
    [The prepared statement of Mr. Doan appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you, Mr. Doan. Mr. Brandi. By the way, I 
am going to ask the witnesses to make sure that your 
microphones are directly in front of you so that the 
transcriptionist can receive your testimony. Thank you.

  STATEMENT OF GENE BRANDI, LEGISLATIVE CHAIRMAN, CALIFORNIA 
                  STATE BEEKEEPERS ASSOCIATION

    Mr. Brandi. Thank you. Good morning, Chairman Cardoza and 
distinguished members of the subcommittee. My name is Gene 
Brandi and I have owned and operated a commercial beekeeping 
business headquartered in Los Banos, California, for the past 
30 years. I serve as the Legislative Chairman of the California 
State Beekeepers Association and appreciate this opportunity to 
inform the subcommittee of some severe difficulties facing the 
beekeeping industry and the effect these problems have on the 
ability of honey bees to adequately pollinate the Nation's 
crops.
    Honey bees are a critical component of the Nation's 
agricultural economy. The pollination work of honey bees 
increases the yield and quality of U.S. crops by approximately 
$15 billion annually, including over $6 billion in California. 
When I started working with bees in the 1970s, it was not 
uncommon for winter colony losses to be five percent or less. 
Since the mid to late 1980s, our Nation's bee industry has been 
experiencing an increase in winter colony mortality and in 
recent years the problem has become severe. This winter, 
beekeepers throughout much of the country are experiencing from 
25 to more than 75 percent colony mortality.
    Approximately 40 percent of my 2,000 colonies are currently 
dead and this is the greatest winter colony mortality I have 
ever experienced in my 30 years of beekeeping. I have already 
lost nearly $60,000 in almond pollination income compared to 
last year, when I had a more tolerable but still costly 20 
percent winter loss. I will also lose at least $20,000 in 
income from the sale of bulk bees this spring, in addition to 
an unknown quantity in lost honey production.
    The cost to restock my 800 dead colonies this year will be 
approximately $48,000. We are just beginning to restock our 
dead hives with bees from our surviving colonies and this 
weakens the surviving colonies for a few weeks until they can 
rebuild their populations. I will purchase new queen bees and 
it should take about two months for the newly restocked 
colonies to build up adequate bee populations to be considered 
commercially viable.
    Even though my loss is substantial, other beekeepers 
throughout the country have suffered much greater losses. 
Beekeepers who lost over 50 percent of their colonies will have 
difficulty making up their losses from their own operations, as 
I plan to do.
    What is causing colony collapse disorder? There are many 
problems facing the bee industry today that make it difficult 
to keep honey bees healthy and CCD may very well be caused by a 
combination of these and perhaps other factors. Poor nutrition, 
mites, diseases and exposure to certain pesticides are serious 
issues that affect the ability of honey bees to survive and 
thrive.
    Good nutrition is critical to overall colony health. An 
adequate supply of nutritious natural pollen and nectar for as 
much of the year as possible is the best way to keep bees 
nutritionally healthy. California, in particular, is a 
difficult place to find good locations where bees can safely 
and successfully be placed when they are not needed for crop 
pollination, given the shrinking availability of bee pasture 
due to urbanization and other issues. This year the lack of 
rainfall in California will make it especially difficult, since 
the available sources of natural food will be greatly reduced. 
Bees that are nutritionally stressed are more susceptible to 
diseases, parasites and other problems.
    It has been known for many years that exposure to certain 
pesticides can kill adult bees. Lesser known is the fact that 
some pesticides can also kill or deform immature bees, the 
brood, adversely affect queen and drone viability or may cause 
bees to lose their member, which prevents them from flying back 
to the hive. The U.S. Environmental Protection Agency currently 
requires that pesticides be assessed only for adult bee 
toxicity.
    It would be very beneficial in trying to resolve the CCD 
problem if pesticides were also assessed for their ability to 
cause additional adverse affects on bees. Additionally, it is 
also important that EPA require enforceable label language on 
those products that are known to be harmful to honey bees so 
that they are not applied to blooming plants that are visited 
by bees.
    It would be very beneficial for USDA-ARS to have a honey 
bee toxicologist who could independently test pesticides for 
acute and residual bee toxicity, the ability to damage brood, 
effect on queen and drone viability and the potential for 
causing memory disorders or other sub-lethal adverse effects on 
bees.
    The University of California, Davis campus used to be home 
to one of the premier honey bee research facilities in the 
Nation, with three Professor of Apiculture conducting studies 
in honey bee behavior, honey bee physiology and honey bee 
genetics. The UC Extension Apiculturist, based in Davis, 
continues to serve the industry well, but he is the only bee 
person remaining on the campus. Other than that, the UC Davis 
facility is not currently being used for honey bee research, as 
there are no longer any active professors of apiculture on the 
campus.
    This facility is strategically located in the heart of 
California's Central Valley, the area of our Nation that uses 
the most bees for crop pollination. It is also located at the 
southern end of the Nation's largest bee breeding area which 
produces nearly one million queen bees annually. If a USDA-ARS 
honey bee research scientist or scientists could be stationed 
at UC Davis to establish a research partnership at this 
facility, it would be a great asset to the beekeeping industry 
and to the growers who need strong, healthy bee colonies to 
pollinate their crops.
    The need for additional bee research is obvious. There are 
just too many unanswered questions that need to be addressed if 
the bee industry is to survive and perhaps thrive again. USDA-
ARS honey bee research facilities in Beltsville, Baton Rouge, 
Weslaco and Tucson are conducting some good research at this 
point, but they need to do much more. These labs could all use 
additional funding in order to find solutions to our industry's 
many problems.
    I appreciate the opportunity to present the information to 
you today on behalf of the bee industry and thank you for your 
concern about our industry and for those who depend upon a 
healthy bee industry to pollinate their crops.
    [The prepared statement of Mr. Brandi appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you, Mr. Brandi. Compelling testimony, 
as well. Thank you, as well, for providing the committee with 
samples that you grow. Mr. Adee.

  STATEMENT OF RICHARD ADEE, LEGISLATIVE COMMITTEE CHAIRMAN, 
              AMERICAN HONEY PRODUCERS ASSOCIATION

    Mr. Adee. Chairman Cardoza, Members of the Subcommittee, on 
behalf of the American Honey Producers Association, I want to 
thank you for the opportunity to testify today about Colony 
Collapse Disorder or CCD. There is much we do not know about 
CCD. It is clear, however, that CCD is causing widespread 
damage to our industry. Beekeepers across the country are 
reporting collapsing colonies and staggering bee losses. Some 
are losing 90 percent of their bees. A few examples illustrate 
the terrible impact that CCD is having on America's beekeepers 
and our bees.
    One migratory beekeeper, based in Mississippi, has only 220 
of 1200 colonies remaining. A sixth generation Colorado 
beekeeper has lost 2800 of his 4,000 colonies. A Texas 
beekeeper, who normally sends 3,000 colonies to pollinate in 
Stanislaus County, California, could send only 1,000 this 
season and some of those were too weak to pollinate.
    CCD also appears to be spreading. Just a few weeks ago, my 
own bees in California seemed to be strong and healthy. Since 
then, however, we are finding that these colonies have not been 
maintaining their populations. Our bees usually produce about 
2.7 new bee colonies, called nucs, per colony. This season, the 
yield is only two nucs per colony. This is unprecedented in our 
15 years in California and very disturbing.
    As you know, CCD affects more than honey production. Over 
90 crops depend on bees for pollination, including California 
almonds, New York apples, Florida oranges, Georgia peaches, 
North Carolina melons, Tennessee soy beans and Texas cotton. 
Bee pollination directly adds about $20 billion to U.S. farm 
output each year and supports about one-third of the human 
diet.
    CCD should also be a loud wake-up call to all of us about 
other serious problems facing American beekeepers. Since the 
1960s, the number of U.S. bee colonies has fallen by almost 50 
percent. At the same time, the demand for pollination is 
increasing sharply. It is unclear where we will get the 
additional bees we need. U.S. bees are also a continued attack 
for a variety of serious mites and pests, including the Varroa, 
the Vampire Mite; Tracheal Mites and bacterial and fungal 
diseases.
    Pests are also building resistance to the new treatments 
more quickly than in the past. Beekeepers worry about bee kills 
caused by the misuse of pesticides and about the affects of new 
GMO crops and agricultural treatments. Bees and beekeepers face 
other stresses caused by the almost constant movement of bees 
for pollination by the need for much more intensive colony 
management and by unfairly traded imports.
    We urge Congress to work closely with beekeepers, producers 
and research on an urgent basis to find the causes of CCD and 
to develop effective measures to stop it. We must also work 
together over the long-term to assure the survival and 
continued health of our vital beekeeping industry. Without 
these efforts, we worry that our industry will face an even 
bigger crisis, a problem some are calling ICD, or Industry 
Collapse Disorder.
    We have a number of recommendations to address these 
serious issues. Strong federal support for new honey bee 
research is essential. Congress should provide at least $1 
million in dedicated funding for CCD, which could be allocated 
to the ARS laboratories in Beltsville and Tucson, and to 
consider other funding for CCD research at the academic and 
private sectors. Funding must also be maintained and 
appropriately increased for the four current ARS honey bee 
labs. These labs do research that is critical for our industry 
survival.
    The central role of bees must also be recognized in 
applying for environmental laws. Potential harm should be of 
paramount concern in regulating existing crop chemicals and new 
ones. At the same time, new treatments for CCD and other 
disorders need to be approved as quickly as possible, 
consistent with the protection of the environment and the 
public health.
    To help U.S. beekeepers survive recent losses, Congress may 
want to consider one time loss payments for injured beekeepers. 
For the longer term, beekeepers should be able to protect 
themselves against losses of various kinds through Federal crop 
insurance. Congress has authorized crop insurance and it should 
strongly urge the USDA to implement such a program for 
beekeepers on an expedited basis.
    Finally, in the 2007 Farm Bill, Congress will have other 
opportunities to help American beekeepers, including continuing 
and improving the current marketing program for honey. Mr. 
Chairman, we look forward to working with Congress to end CCD 
and to assure that our Nation's bee industry is strong. Thank 
you very much for holding this important hearing. I would be 
pleased to answer any questions that the members of the 
subcommittee may have.
    [The prepared statement of Mr. Adee appears at the 
conclusion of the hearing.]
    Mr. Cardoza. Thank you, Mr. Adee. I want to begin the 
questioning by thanking you for your testimony. In particular, 
your testimony indicated that USDA's risk management agency had 
been contacted or contracted for development of a pilot program 
on honey bee insurance and that that has not happened yet. That 
was in 2005; it is now 2007. I would encourage USDA to get with 
the program here and move this program, because clearly it is 
needed for this industry now, not later.
    I had a question for you, but we are very short of time 
because the votes have interceded and a number of the members 
of the committee have other functions that we have to deal 
with, other events that we have to be at, meetings we have to 
intend. So my next question is for the entire panel and please 
keep your answer as short as possible, but as concise and to 
the point of the exact problem as you can possibly do.
    Several of you have indicated and raised concerns over the 
impact of agricultural pesticides on honey bee populations and 
that was raised in almost every member's testimony. My 
experience is that farmers and ranchers are generally very wise 
users of pesticides, that they follow the labels, that they 
comply with the standards and still it seems that you think or 
you suspect that this is having an impact on bee populations. I 
would like for you each to discuss in greater detail your 
perspective on pesticide use and the potential impact that this 
might be having on this problem.
    Mr. Wenger. Real quickly, I am also a licensed pest control 
operator, as well as an almond grower and I need to say that 
whenever we apply anything in the springtime, you are not 
applying any kind of pesticides that are killing agents, they 
are just fungicides in the almonds. The only time that we do 
come up in California against some problems is when we have an 
Alfalfa Weevil. But through the ag commissioners, we have to 
notify all beekeepers within a two-mile radius, as long as they 
register with the county ag commissioner, they have to register 
with the county ag commissioner, let them know where they are 
at.
    We can go in and we can notify all the beekeepers through a 
phone call that we are going to be applying and tell them when 
we are going to do that, and we have to do that 48 hours in 
advance so that they can do something to protect those hives, 
if there is something to be done there. But also, from what I 
have been hearing talking to folks, it could be things that are 
happening during the growing season, especially a lot of the 
bees that we have in California come from out of state, so it 
might not be something that is happening while the bees are in 
the field.
    Mr. Cardoza. Thank you, Mr. Wenger.
    Mr. Adee. My experience in South Dakota is it basically 
follows your assessment of the aerial applicators, pesticide 
applicators. We have a great bunch of people working good with 
us, the same way in California, but part of the problem 
probably is and could be is that some of these pesticides 
working in combination, by themselves are not harmful to bees, 
but in combination are lethal and we have seen this with some 
of the treatments we have had in hive use, and some of the 
fungicides that they are putting on the trees. Neither one by 
themselves are not harmful, but in combination we have a lethal 
product, and so we just need more research. And I think the 
applicators are doing their best, the beekeepers are doing 
their best, but we are just having some problems in there.
    Mr. Cardoza. Mr. Doan, did you have a perspective?
    Mr. Doan. Yes, sir. Our concern is, at least on my part and 
when you read the evidence out of France, and I don't think my 
growers do it on purpose, but there are systemic pesticides 
that are being used and so they are coming through the plants, 
the bees are collecting it as pollen, bringing it back to the 
hive and then it is fed to the young and to the nurse bees. And 
if you read through what I have presented, you will find that 
the evidence indicates that there are disrupters of their 
orientation of all insects and that would lead me to believe 
that these bees are flying off and just are not able to come 
back to those hives to find where they belong, and bees are 
social insects and they die on their own.
    Mr. Cardoza. You suspect this? We don't have empirical 
evidence to point to that?
    Mr. Doan. We don't have here. So far, there have not been 
any tests done to check for the pesticides in the pollen. The 
samples have been drawn, but as far as I know, there is no labs 
to run these tests at currently, or machinery.
    Mr. Cardoza. Mr. Brandi.
    Mr. Brandi. Certainly, in the San Joaquin Valley of 
California, we do have a lot of experience with pesticides and 
where bees are exposed to pesticides routinely throughout the 
year, depending upon the crops we happen to be on. But over the 
past 30 years, the applicators have become much more educated 
and aware of the value of bees and certainly are cognizant of 
that. I think it is more of a situation of the fact that we 
just don't know what certain chemicals will do to bees, sub-
lethal or acutely or residually toxic. We used to have a person 
at UC Riverside that would independently test pesticides for 
bee toxicity. He retired in the early 1980s and has not been 
replaced. The fellow from Washington State University was the 
next independent tester of pesticides as they relate to bees 
and he retired back in the 1990s. So really, we have been kind 
of blind here for about the last 10 years and that is why I 
thought if the USDA had a bee toxicologist that could be hired 
on, it would be good, because we just don't know about, not 
only the residual effects of some of these chemicals, but the 
other sub-lethal effects that have been referred to here today 
as well. We just don't know. We are guinea pigs in the field.
    Mr. Cardoza. In my Healthy America Act, a number of members 
of this committee and a number of congressional members have 
been very concerned about the lack of research dollars that 
have been going into agriculture in the last few years. Thank 
you for highlighting that problem. Clearly, Mr. Wenger, in your 
testimony, you raised anecdotal correlation to declining 
research dollars and raising disease and pest problems, and so 
if you have any further comment, we are almost at the end of 
our time here, but I will give you the opportunity to comment 
on that.
    Mr. Wenger. Well, I just think a lot of the times these 
problems just creep up on us slowly and we have noticed, even 
through the land grant universities, as we go into more and 
more areas of research, it seems like a lot of the basic ag 
research is where we are losing and today it is not so much 
that we need the research to how to produce a better almond or 
how to produce more almonds per acre, but it is these things 
like this with the bee research. How do we help with the air 
and the water issues? And so I think anything the Congress can 
do with the land grant universities especially, to encourage 
the continuation of support of agricultural research and 
applied research and the extension agents and how they get that 
out in the field, it would be very beneficial, not only to 
agriculture, but all those in America that depend upon American 
agriculture.
    Mr. Cardoza. Thank you, Paul. Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. Mr. Brandi, let me 
ask you first. How long has CCD been an issue, that we have 
noticed it?
    Mr. Brandi. CCD was only named such just within the past 
few months, but we have noticed an increase in winter colony 
die-off for several years, but it has never been as severe as 
this year.
    Mr. Etheridge. Let me tell you why I am asking the 
question, because I am trying to get, and I don't expect you to 
give me a definitive answer when I ask you. So hopefully, we 
have got a few scholars in the audience and some of the USDA is 
still here, because we talked about pesticides a few minutes 
ago and we have been using pesticides for years, you know, to 
expand our crops and do other things, so you know, I want to be 
careful how we go there. I really wonder if it is a combination 
and I really wish I would have this chance to ask the USDA 
representative earlier. I wonder if it started regionally as we 
had droughts. You know, we have had severe droughts in some 
areas over the last number of years now, and in North Carolina 
it has been several years since we have had one, fortunately. 
The Midwest has really been in tough times, and the far west 
have had some severe droughts and even in some parts of the 
Southeast. You really wonder if this stress adds to those 
issues. I know we need to do some research on this, so let me 
move to another question and raise that.
    You are a representative of industry and you have been at 
it a long time, as you have indicated, and as the industry 
comes together, is there a working relationship across the 
industry? I know we have beekeepers, but across the industry, 
of things they are doing to gather data so that we can share 
that data with our university representatives, as I raised the 
issue, if you remember, with the first panel, because they have 
got a lot people out there. We provide a lot of research 
dollars in a lot of areas, and if the industry is gathering 
data to share, it would be very helpful to have that data to be 
available. Or are we gathering data, or was it all anecdotal?
    Mr. Adee. At the present time, Dr. Bromenshank, up in 
Montana, has been doing a survey of the industry, just to see 
the depth of the problem and he has put together some very, 
very good information and I think it is going to be very useful 
information.
    Mr. Etheridge. Do you know when that might be completed?
    Mr. Adee. I think it is ongoing right now. Parts of it have 
been completed already. I have seen some of it, yes.
    Mr. Etheridge. Mr. Chairman, I think it would be helpful to 
this committee if once that survey is completed and the 
information has been consolidated, it would be very helpful to 
us to have that information.
    Mr. Cardoza. I will certainly make sure we get that.
    Mr. Etheridge. So we can at least share that.
    Mr. Cardoza. Yes, we will be certain to get that.
    Mr. Etheridge. As we make our decision, that would be very 
helpful.
    Mr. Cardoza. Yes.
    Mr. Etheridge. Thank you. Mr. Ellingson, you have been in 
business, as you have indicated earlier, a long time.
    Mr. Ellingson. Yes, sir.
    Mr. Etheridge. You have a seen a lot of ups and downs and a 
lot of changes. Having grown up on a farm, I have some 
understanding of that. But I guess my question is, is we went 
through the mites and other things and I think there is 
probably not a real good understanding on the part of the 
general public of how important bees are to productivity. 
Farmers know. Those people that are actually engaged in the 
specific commodities know. So hopefully this hearing, Mr. 
Chairman, will help start that process. I think my bigger 
question is, compared to the problems that we have faced in the 
industry, with beekeeping over the years, and you indicated in 
your earlier testimony the severity of this. How would you 
classify the current situation as it relates to previous 
challenges that have been faced by the industry?
    Mr. Ellingson. I would say we are on the coast of 
catastrophic, to give a one-word answer. I would also say that, 
you know, we have gone through this using, you know, Dr. Marla 
Spivak's hygienic queen selection. You know, can we put in new 
frames? We have done all the things you are supposed to do 
right and we are still seeing this problem. Usually, if you 
have a problem, you know, if your combs are old, you replace 
them and you get new combs and things work well and hives turn 
around. If you have got Nosema, you feed Fumidil, those types 
of things. I have been doing all of these things; we are still 
having a problem. I asked a fellow beekeeper the other day when 
I went and bought some--I said, Darryl, what did you do last 
year when you had this big collapse compared to this year? He 
said nothing. I did everything. The same way I did it last 
year, I did it this year. And he has no answer, either, why his 
bees are okay this year.
    Mr. Etheridge. I think that is a good one for me to end on, 
unless someone else disagrees with that. Thank you, sir. Thank 
you, Mr. Chairman.
    Mr. Cardoza. Thank you, Mr. Etheridge. I want to make two 
points before we close here today. First of all, we have had a 
discussion on a number of things. We are going to follow this 
question, this mystery that we have in the bee industry and 
back to nature to completion. We are going to try and figure 
out what that is. We are going to advocate for more resources. 
Government's wheels turn oftentimes too slow. We are going to 
need private sector and the State departments of agriculture to 
work with USDA to try and help Congress get to the point where 
we can help you all deal with this situation. But you have the 
commitment from this committee that we are going to do 
everything within our power and follow the leads, like 
detectives, wherever they may go. It may be, as Mr. Doan 
indicates, that it could be a pesticide issue; it may not. We 
don't know that yet and I don't want to implicate anything 
before we know for certain what the true culprit is. But I 
think it is imperative that we do find out who that culprit is 
and what the culprit is, because this industry is too important 
to the country and to food production for us not to follow the 
leads and find out what is causing this problem.
    I thank you all. I thank all of the witnesses for their 
testimony. I thank the members of the committee for their 
interest. Under the rules of the committee, the record of 
today's hearing will remain open for 10 days to receive 
additional material and supplementary written responses from 
the witnesses to any questions posed by members of the panel. 
This hearing of the Subcommittee on Horticulture and Organic 
Agriculture is hereby adjourned.
    [Whereupon, at 12:18 p.m., the Subcommittee was adjourned.]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Additional Testimony of Gene Brandi of the California State Beekeepers 
                              Association

    I appreciate this opportunity to submit additional 
testimony on colony collapse disorder to the Subcommittee on 
Horticulture and Organic Agriculture.
    Certain pesticides have adversely affected bee health 
throughout the United States for many years. Additional 
scientific knowledge about the acute, residual, and sub lethal 
adverse affects of particular pesticides to honey bees is 
critical to understanding whether or not these compounds are 
responsible for any degree of colony collapse disorder.
    Beginning in 1996, as Chairman of the American Beekeeping 
Federation's Research and Technical Committee, I served as a 
member of the EPA State Labeling Issues Panel. The panel 
consisted primarily of EPA and state pesticide regulators, and 
was assembled in an effort to improve the bee hazard warning on 
pesticide labels. It became apparent to me early in these 
discussions that there was a severe lack of appreciation by EPA 
with regard to the severity of pesticide problems encountered 
by honey bees and other pollinators in the United States. After 
several years and many attempts, in my opinion the bee hazard 
warnings on pesticide labels were not improved.
    Pesticide toxicity to honey bees from spray, dust, and 
certain bait formulations has been apparent for years, but 
there is also concern that systemic pesticides may be adversely 
affecting honey bees as well. Independent research by a honey 
bee toxicologist can determine the effects of topically applied 
and systemic pesticides to honey bees on various crops.
    My experience leads me to believe that the effects of 
pesticides on honey bees are not a high priority with the U.S. 
Environmental Protection Agency. Given that approximately $15 
billion of the U.S. farm economy would not exist without the 
pollination work of honey bees, and it is clear that the 
nation's honey bees are at risk from colony collapse disorder, 
it is vital that EPA increase its ``level of concern'' with 
regard to pesticides that adversely impact honey bees.
    I very much appreciate the concern of the House 
Subcommittee on Horticulture and Organic Agriculture and its 
attempt to help the bee industry and the scientific community 
find solutions to the colony collapse disorder problem.
    Thank you for the opportunity to testify at the hearing and 
for allowing this additional testimony to be added to the 
record as well.

                                  <all>

</pre></body></html>
